LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 31, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1199:

STUDENTS FOR FAIR ADMISSIONS, INC.
FELLOWS OF HARVARD COLLEGE

V.

PRESIDENT AND

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Former
Attorney General Edwin Meese III on March 31, 2021, I caused service to be made
pursuant to Rule 29 and the Temporary Order of April 15, 2020 on the following
counsel for the Petitioner and Respondents:
PETITIONER:
William Spencer Consovoy
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
703-243-9423
will@consovoymccarthy.com

RESPONDENTS:
Seth P. Waxman
Wilmer Cutler Pickering Hale
and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
202-663-6800
Seth.Waxman@wilmerhale.com

This service was effected by depositing one copy of the Brief of Amicus Curiae
Former Attorney General Edwin Meese III in an official “first class mail” receptacle of
the United States Post Office as well as by transmitting a digital copy via electronic
mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of March 2021.

